WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Enzo Life Sciences, Inc.

19-1073
v.

Roche Molecular Systems, Inc., et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Roche Molecular Systems, Inc.; Roche Diagnostics Corporation; Roche Diagnostics Operations, Inc.;
Roche Nimblegen, Inc.; Becton, Dickinson and Company; Becton Dickinson Diagnostics Inc.; and Geneohm Sciences Inc.

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:

March 2, 2020

(Type or print) Name

Thomas G. Saunders
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

Wilmer Cutler Pickering Hale and Dorr LLP

Address

1875 Pennsylvania Avenue NW

City & State
Phone

Washington, DC

202-663-6536

Zip
Email

20006

thomas.saunders@wilmerhale.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Justin Patrick Daniel Wilcox, Desmarais LLP

